Audit Report




OIG-11-056
SAFETY AND SOUNDNESS: Failed Bank Review of First Arizona
Savings, Scottsdale, Arizona
January 03, 2011




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              January 3, 2011


            OIG-11-056

            MEMORANDUM FOR JOHN E. BOWMAN
                           ACTING DIRECTOR
                           OFFICE OF THRIFT SUPERVISION

            FROM:                 Jeffrey Dye /s/
                                  Director, Banking Audits

            SUBJECT:              Failed Bank Review of First Arizona Savings, Scottsdale,
                                  Arizona


            This memorandum presents the results of our review of the failure of First Arizona
            Savings (First Arizona) located in Scottsdale, Arizona. First Arizona was established
            in May 1988 as First Arizona Savings and Loan Association. On November 1,
            1995, First Arizona changed from a savings and loan association to a federal
            savings bank. First Arizona operated a main office in Scottsdale and maintained
            7 branches. The Office of Thrift Supervision (OTS) closed First Arizona and
            appointed the Federal Deposit Insurance Corporation (FDIC) as receiver on October
            22, 2010. As of June 30, 2010, First Arizona had approximately $272.2 million in
            total assets and $198.8 million in total deposits. FDIC estimated that the loss to
            the Deposit Insurance Fund is $32.3 million as of October 31, 2010.

            Because the loss to the Deposit Insurance Fund is less than $200 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
            review of the failure of First Arizona that was limited to (1) ascertaining the
            grounds identified by OTS for appointing the FDIC as receiver and (2) determining
            whether any unusual circumstances exist that might warrant a more in-depth
            review of the loss. In performing our review we (1) examined documentation
            related to the appointment of FDIC as receiver, (2) reviewed OTS reports of
            examination, and (3) interviewed OTS examination personnel.

            We conducted this performance audit during October and November 2010 in
            accordance with generally accepted government auditing standards. Those
            standards require that we plan and perform the audit to obtain sufficient,
            appropriate evidence to provide a reasonable basis for our findings and conclusions
            based on our audit objectives. We believe that the evidence obtained provides a
            reasonable basis for our findings and conclusions based on our audit objectives.
OIG-11-056
Page 2


Causes of First Arizona’s Failure
OTS appointed FDIC as receiver based on the following grounds: (1) the thrift’s capital
had been severely impaired, (2) the thrift had failed to submit an acceptable capital
restoration plan to OTS, and (3) the thrift’s board of directors consented to the
appointment.

The primary cause of First Arizona’s failure was the thrift’s high concentrations in
construction and land lending. Management and the board poorly positioned the thrift
by concentrating assets in single-family residential construction loans, non-traditional
mortgages, and traditional mortgages. As a consequence, the thrift suffered large
operating losses due to high loan loss provisions and declining net interest margins. In
this regard, First Arizona’s earnings had been poor for several years, and the thrift had
not reported positive annual earnings since 2007. Management tried to maintain the
thrift’s capital ratios by reducing assets and limiting new lending but these efforts
were ultimately unsuccessful.

Conclusion
Based on our review of the causes of First Arizona’s failure and the grounds
identified by OTS for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the thrift’s failure or the supervision
exercised by OTS. Accordingly, we have determined that a more in-depth review of
the thrift’s failure by our office is not warranted.

We provided a draft of this memorandum to OTS management for comment. In its
response, OTS stated that the primary causes of First Arizona’s failure summarized
in this memorandum are consistent with the information contained in its reports of
examinations and documents in support of the grounds for receivership. The
response is provided as Attachment 1. A list of the recipients of this memorandum
is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or
Rashmi Bartlett, Audit Manager, at (202) 927-5839.

Attachments
         OIG-11-056

       Attachment 1
Management Response
                                                   OIG-11-056

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of Thrift Supervision

   Acting Director
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
